0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
' United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
National Association of Travel Healthcare
Organizations as Amicus Curiae Supporting Petitioner
in 21-296, AMN Services, LLC v. Verna Clarke, et al.,
were sent via Next Day Service to the U.S. Supreme
Court, and 3 copies were sent via Next Day Service
and e-mail to the following parties listed below, this
28th day of September, 2021:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioner
Allison M. Zieve
Public Citizen Litigation Group
1600 20th Street, NW
Washington, DC 20009
(202) 588-1000
azieve@citizen.org
Kye D. Pawlenko
Hayes Pawlenko LLP
1414 Fair Oaks Avenue
Suite 2B
South Pasadena, CA 91030
(626) 808-4357
kpaw lenko@helpcounsel.com

Counsel for Respondents

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati. Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Christopher F. Droney
Counsel of Record
Joseph T. Nawrocki
Day Pitney LLP
242 Trumbull Street
Hartford, CT 06103
(860) 275-0100
cdroney@daypitney.com
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 28, 2021.

&

I

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:cJ~~
Notary Public
[seal]

